No.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

THE ROUGE HOUSE, LLC

Petitioner
v.
308 DECATUR-NEW ORLEANS, LLC,
Respondent

 

CERTIFICATE OF WORD COUNT

Before me, the undersigned notary, came TRACY RILEY, member of Rouge House,
LLC and did say and depose that: as required by Supreme Court Rule 33.1(h), I
certify that The Rouge House, LLC’s PETITION FOR WRIT OF CERTIORARI contains
5250 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

TRACY RILEY, for The Rouge House LLC

SWORN Upon a BEFORE
ME THIS AY OF 5 2021

NOTARY j

NOTARY/LSBA NO. BEF O72 7,0 :
MY COMMISSION EXPIRES
MY JURISDICTION IS__ 42257
